No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

MELISSA POCOPANNI,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida First District Court of Appeal

PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

A. QUESTION PRESENTED FOR REVIEW
Whether a sentence of life imprisonment without the possibility of parole on a
nineteen-year-old defendant convicted as a principal to second-degree murder – and
who, as specifically acknowledged by the trial court, had no intent to commit murder
and who was held criminally responsible solely because she agreed to loan her car to
others who planned to commit a robbery – violates the prohibition of cruel and unusual
punishment of the Eighth Amendment to the Constitution.

ii

B. PARTIES INVOLVED
The parties involved are identified in the style of the case.

iii

C. TABLE OF CONTENTS AND TABLE OF AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTION PRESENTED FOR REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

B.

PARTIES INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

C.

TABLE OF CONTENTS AND TABLE OF AUTHORITIES . . . . . . . . . . . . . iv
1.

Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

2.

Table of Cited Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

D.

CITATION TO OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

F.

CONSTITUTIONAL PROVISION INVOLVED . . . . . . . . . . . . . . . . . . . . . . . 1

G.

STATEMENT OF THE CASE AND STATEMENT OF THE FACTS . . . . . . 1

H.

REASON FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
The question presented is important . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

J.

APPENDIX

iv

2.

TABLE OF CITED AUTHORITIES

a.

Cases

Bear Cloud v. State, 294 P.3d 36 (Wyo. 2013)) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Eddings v. Oklahoma, 455 U.S. 104 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Graham v. Florida, 560 U.S. 48 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Jenkins v. State, 385 So. 2d 1356 (Fla. 1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Matter of Light-Roth, 2017 WL 3473644 (Wash. Ct. App. Aug. 14, 2017) . . . . . . . . 15
Matter of Monschke, 2021 WL 923319 (Wash. Mar. 11, 2021) . . . . . . . . . . . . . . . . . 15
Miller v. Alabama, 567 U.S. 460 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 10, 12
People v. House, 2015 WL 9428803 (Ill. App. Ct. Dec. 24, 2015) . . . . . . . . . . . . . . 7-14
People v. Miller, 781 N.E.2d 300 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Pocopanni v. State, 304 So. 3d 760 (Fla. 1st DCA 2020) . . . . . . . . . . . . . . . . . . . . . . 1
Roper v. Simmons, 543 U.S. 551 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
State v. Null, 836 N.W.2d 41 (Iowa 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Thompson v. Oklahoma, 487 U.S. 815 (1988). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

b.

Statutes

§ 921.1401, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15-16
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

c.

Other Authority

American Medical Association et al. as Amicia Curiae, Brief for Petitioner
Graham, No. 08–7412, 2009 WL 2247127 . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-6
v

Elkhonon Goldberg, The Executive Brain: Frontal Lobes and the Civilized
Mind (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Jay N. Giedd et al., Brain Development During Childhood and Adolescence:
A Longitudinal MRI Study, 2 Nature Neurosci. 861 (1999) . . . . . . . . . . . . . . 6
Kanako Ishida, Young Adults in Conflict with the Law: Opportunities
for Diversion, Juvenile Justice Initiative (Feb. 2015), available
at jjustice.org/wordpress/wp-content/uploads/Young-Adults-in-Conflictwith-the-Law-Opportunities-for-Diversion.pdf. . . . . . . . . . . . . . . . . . . . . . . . 11
Lawrence Steinberg & Elizabeth Scott, Less Guilty by Reason of
Adolescence: Developmental Immaturity, Diminished Responsibility,
and the Juvenile Death Penalty, 58 Am. Psychologist 1009 (2003). . . . . . . . 8-9
Mark Hanson, What’s the Matter with Kids Today, ABA Journal, July 2010. . . . . . 6
Maureen Dowling, Note Juvenile Sentencing in Illinois: Addressing the
Supreme Court Trend Away From Harsh Punishments for Juvenile
Offenders, 35 N. Ill. U. L. Rev. 611, 619 (2015) . . . . . . . . . . . . . . . . . . . 9-10, 12
Pub. Act. 98–61, § 5 (eff. Jan. 1, 2014) (amending 705 ILCS 405/5-105(3)
(West 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Richard Knox, The Teen Brain: It’s Just Not grown Up Yet,
Nat’l Pub. Radio (March 1, 2010), available at http://www.npr.
org/templates/story/story.php?story ID= 124119468 . . . . . . . . . . . . . . . . . . . 6-7
705 ILCS 405/5-105(3) (West 2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
720 ILCS 5/9-1 (West 2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
730 ILCS 5/5-8-1(a) (West 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
730 ILCS 5/5-8-1(a)(1)(c)(ii) (West 2014). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
U.S. Const. amend. VIII. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Vincent Schiraldi & Bruce Western, Why 21 year-old offenders should be
tried in family court, Wash. Post (Oct. 2, 2015), available at www.
washingtonpost.com/opinions/time-to-raise-the-juvenile-age-limit/
2015/10/02/948e317c-6862-11e5–-9ef3-fde182507eacstory.html . . . . . . . . . 11
vi

William J. Hudspeth & Karl H. Pribram, Psychophysiological Indices of
Cerebral Maturation, 21 Int’l J. Psychophysiology 19 (1992) . . . . . . . . . . . . . 6

vii

The Petitioner, MELISSA POCOPANNI, requests the Court to issue a writ of
certiorari to review the judgment of the Florida First District Court of Appeal entered
in this case on October 2, 2020 (A-4)1 (rehearing denied on October 21, 2020 (A-3)).

D. CITATION TO ORDER BELOW
Pocopanni v. State, 304 So. 3d 760 (Fla. 1st DCA 2020).2

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant to 28 U.S.C. § 1257 to review
the final judgment of the Florida First District Court of Appeal.

F. CONSTITUTIONAL PROVISION INVOLVED
The Eighth Amendment to the Constitution states: “Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and unusual punishments inflicted.”

G. STATEMENT OF THE CASE
In 2017, the Petitioner was charged in Florida state court with one count of
second-degree murder and two counts of attempted second-degree murder.

The

1

References to the appendix to this petition will be made by the designation “A”
followed by the appropriate page number.
2

Because the state appellate court did not issue a written opinion, the Petitioner
was not entitled to seek review in the Florida Supreme Court. See Jenkins v. State,
385 So. 2d 1356, 1359 (Fla. 1980).
1

offenses occurred on February 4, 2017.

At the time of the offenses, Appellant

Pocopanni was only nineteen years old. Thomas Buckhalter died as a result of the
offenses and Ashley Johns and Jermun Nair were injured.

The State charged

Appellant Pocopanni as a principal pursuant to its theory that she allowed the
codefendants (Kyehem Johnson, Dedric Davis, and Walter Ford) to use her car – and
they (the codefendants) ultimately drove her car (with her in the backseat) to a party
and shot the victims.
The case proceeded to trial in November of 2018. At trial, defense counsel
argued that the State’s evidence failed to prove that Appellant Pocopanni knew (or was
told) that the codefendants would shoot into a crowd at the party until she was already
in the car on the way to the scene of the incident. In denying the motion for a
judgment of acquittal after the State rested its case, the trial court acknowledged that
the Petitioner had no intent to commit murder (and that she was being held criminally
responsible because she agreed to loan her car to others who planned to commit a
robbery):
THE COURT: All right. Well, the evidence shows that the
defendant was very eager to participate in what she called a sweet lick
with the co-defendants which she said meant robbery of money or drugs.
The evidence shows that these individuals were armed.
In fact, she indicated in her statements as I recall that they always
had guns, and so she got in the car or she actually loaned them her car,
which I think is very significant because without the car there could be
no crime. No car. No crime. No crime. No murder.
And she could have got out of the car at any time before they got
to the scene of the crime, just like RJ Green got out of the car. She could
have changed her mind and refused to let them use the car.
She also indicated that she was aware that one of them had a beef
with somebody else because of Facebook posts so I think the jury can
2

infer the defendant was a willing participant in a crime of violence that
was going to take place, even though she may have thought it was going
to be a robbery, and it turned out to be a murder. I think that’s a
question for the jury so therefore the motion is denied.
(A-14-15). At the conclusion of the trial, the jury returned a verdict of guilty as
charged for all three counts.
The Petitioner was sentenced in January of 2019. During the sentencing
hearing, at sentencing, the trial court stated:
She may not have known they were going to shoot somebody in a driveby
shooting, but she knew that her codefendants were armed with firearms.
(A-112) (emphasis added). The trial court further stated:
[A lot of people] don’t understand felony murder.
I’ve had cases where somebody commits – admits to participating
in the underlying felony and they think that they’re not guilty of the
murder, because they didn’t commit the murder. So it’s not unusual for
a defendant to not know the legal consequences of their admissions to the
police.
I do find that from the evidence in this case the codefendants were
confident that the defendant would assist them in hitting a lick by letting
them use her car. They knew they could depend on her.
(A-110-111). Ultimately, the trial court sentenced the Petitioner to a total sentence of
life imprisonment without the possibility of parole. (A-6-9).
On direct appeal, the Petitioner argued that her sentence violates the
prohibition of cruel and unusual punishment of the Eighth Amendment to the
Constitution. The Florida First District Court of Appeal affirmed the sentence without
explanation. (A-4).

3

H. REASON FOR GRANTING THE WRIT
The question presented is important.
The Petitioner was convicted as a principal to one count of second-degree murder
and two counts of attempted second-degree murder. As acknowledged by the trial
court, the Petitioner had no intent to commit murder (and she was held criminally
responsible because she agreed to loan her car to others who planned to commit a
robbery). At the time of the offenses, the Petitioner was only nineteen years old.
Nevertheless, the Petitioner was sentenced to life imprisonment without the possibility
of parole. The Petitioner submits that a sentence of life imprisonment without the
possibility of parole on any teenage defendant violates the prohibition of cruel and
unusual punishment of the Eighth Amendment of the United States Constitution.
This Court’s decision in Graham v. Florida, 560 U.S. 48 (2010), highlighted the
differences between an adult with a fully-developed brain and a person who has yet to
achieve adulthood – whose brain has not fully developed. In Graham, the Court held
that a sentence of life imprisonment without the possibility of parole for juvenile
offenders who did not commit homicide is categorically barred by the Eighth
Amendment. To support this holding, the Court relied on the data demonstrating
differences between the adult brain and the non-adult brain:
Roper [v. Simmons, 543 U.S. 551 (2005),] established that because
juveniles have lessened culpability they are less deserving of the most
severe punishments. 543 U.S., at 569. As compared to adults, juveniles
have a “‘lack of maturity and an underdeveloped sense of responsibility’”;
they “are more vulnerable or susceptible to negative influences and
outside pressures, including peer pressure”; and their characters are “not
4

as well formed.” Id., at 569-570. These salient characteristics mean that
“[i]t is difficult even for expert psychologists to differentiate between the
juvenile offender whose crime reflects unfortunate yet transient
immaturity, and the rare juvenile offender whose crime reflects
irreparable corruption.” Id., at 573. Accordingly, “juvenile offenders
cannot with reliability be classified among the worst offenders.” Id., at
569. A juvenile is not absolved of responsibility for his actions, but his
transgression “is not as morally reprehensible as that of an adult.”
Thompson [v. Oklahoma, 487 U.S. 815,] 835 [(1988)] (plurality opinion).
No recent data provide reason to reconsider the Court’s
observations in Roper about the nature of juveniles. As petitioner’s amici
point out, developments in psychology and brain science continue to show
fundamental differences between juvenile and adult minds. For example,
parts of the brain involved in behavior control continue to mature
through late adolescence. See Brief for American Medical Association et
al. as Amici Curiae 16-24; Brief for American Psychological Association
et al. as Amici Curiae 22-27. Juveniles are more capable of change than
are adults, and their actions are less likely to be evidence of “irretrievably
depraved character” than are the actions of adults. Roper, 543 U.S., at
570. It remains true that “[f]rom a moral standpoint it would be
misguided to equate the failings of a minor with those of an adult, for a
greater possibility exists that a minor’s character deficiencies will be
reformed.” Ibid. These matters relate to the status of the offenders in
question; and it is relevant to consider next the nature of the offenses to
which this harsh penalty might apply.
Graham, 560 U.S. at 68-69. Undersigned counsel acknowledges that in Graham, the
Court was focusing on juveniles (i.e., those defendants who had not yet achieved the
age of eighteen). However, in one of the amicus briefs considered by the Court in
Graham, it was pointed out that the human brain does not fully develop until the age
of twenty-five. Specifically, in the amicus brief submitted by the American Medical
Association (No. 08–7412, 2009 WL 2247127 at *13-31 – hereinafter “Graham AMA
Brief”), it was explained that structural differences between adolescent and adult
brains, confirmed by recently developed brain imagery technology, demonstrate that

5

critical regions of the brain responsible for controlling thoughts, emotions, impulsivity,
and actions continue to develop through age twenty-five.3
3

There are two ways in which the adolescent’s prefrontal cortex is physically
underdeveloped, affecting brain functioning: pruning and myelination. See Graham
AMA Brief at 18-19. Pruning refers to the process of decreasing gray matter in the
brain as it matures. Id. at 19 (“[P]runing of excess neurons and connections which
make up the gray matter leads to greater efficiency of neural processing and
strengthens the brain’s ability to reason and consistently exercise good judgment.
Thus, pruning establishes some pathways and extinguishes others, enhancing overall
brain functions.”). MRI technology has allowed for a better understanding of the
pruning process and its impact on brain maturation:
Gray matter volumes peak during the ages from 10-20 years, and
the prefrontal cortex is one of the places where gray matter increases –
before adolescence – and then gets pruned over time, beyond adolescence.
The prefrontal cortex is also one of the last regions where pruning is
complete and this region continues to thin past adolescence.
Graham AMA Brief at 20-21. Pruning is one measure of brain maturity. One of the
last regions of the brain to reach full maturity in the pruning process in the pre-frontal
cortex – “the region most closely associated with risk assessment, impulse control,
emotional regulation, decision-making, and planning . . . .” Id. at 21. During
adolescence, “white matter” in the brain increases by a process called “myelination.”
“The presence of myelin makes communication between different parts of the brain
faster and more reliable.” Elkhonon Goldberg, The Executive Brain: Frontal Lobes and
the Civilized Mind 144 (2001). The increase in “white matter” or myelination
“continues through adolescence into adulthood.” Graham AMA Brief at 22, n.68. A
longitudinal MRI study at the National Institute of Mental Health documented an
increase in white matter continuing through the teenage years to at least age 22. See
Jay N. Giedd et al., Brain Development During Childhood and Adolescence: A
Longitudinal MRI Study, 2 Nature Neurosci. 861, 861-62 (1999). Late maturation of
the frontal lobes is also consistent with electroencephalogram (EEG) research showing
that the frontal executive region matures from ages 17-21 – after maturation appears
to cease in other brain regions. William J. Hudspeth & Karl H. Pribram,
Psychophysiological Indices of Cerebral Maturation, 21 Int’l J. Psychophysiology 19, 2627 (1992). See also Mark Hanson, What’s the Matter with Kids Today, ABA Journal,
July 2010, at 50 (discussing scientific research that suggests psychosocial development
continues into early adulthood resulting in shortsighted decisions, poor impulse
control, and increased vulnerability to peer pressure during adolescence); Richard
Knox, The Teen Brain: It’s Just Not grown Up Yet, Nat’l Pub. Radio (March 1, 2010),
6

As explained above, the criminal incident in the instant case occurred when the
Petitioner was just nineteen years old. The human brain development research relied
upon by the Court in Graham applies equally to the Petitioner’s case.
In support of her argument that it is unconstitutional (both facially and as
applied to the Petitioner) to impose a sentence of life imprisonment without the
possibility of parole on a nineteen-year-old defendant, the Petitioner relies on the
Illinois appellate court’s decision in People v. House, 2015 WL 9428803 (Ill. App. Ct.
Dec. 24, 2015). In House, the court held that the imposition of a mandatory natural life
sentence on a nineteen-year-old defendant convicted of murder and aggravated
kidnapping violated the Eighth Amendment:
While defendant was not a juvenile at the time of the offense, his
young age of 19 is relevant in consideration under the circumstances of
this case. As in [People v.] Miller[, 781 N.E.2d 300 (2002)], defendant’s
sentence involved the convergence of the accountability statute and the
mandatory natural life sentence. We acknowledge that the offender in
Miller was 15, never handled a firearm, and had less than a minute to
consider the implications of his participation. In the present case, the
State’s evidence at trial established that defendant was not present at the
scene of the murder, but merely acted as a lookout near the railroad
tracks. There was no evidence that defendant helped to plan the
commission, but instead took orders from higher ranking UVL members.
While defendant had a greater involvement in the commission of the
offenses than the defendant in Miller, after considering the evidence and
defendant’s relevant culpability, we question the propriety of mandatory
natural life for a 19 year old defendant convicted under a theory of
accountability. Although defendant acted as a lookout during the
commission of the crime and was not the actual shooter, he received a

http://www. npr.org/ templates/story/story.php?story ID= 124119468 (interview of
Harvard University scientists and expert on epilepsy, Frances Jensen) (“Recent studies
show that neural insulation [which connects the frontal lobes to the rest of the brain]
isn’t complete until the mid–20’s.”).
7

mandatory natural life sentence, the same sentence applicable to the
person who pulled the trigger.
We also observe that the Supreme Court in Miller [v. Alabama, 567
U.S. 460 (2012)], Graham and Roper considered the continuing brain
development in adolescents.
“Because juveniles have diminished culpability and
greater prospects for reform, we explained, ‘they are less
deserving of the most severe punishments.’ Graham, 560
U.S. at 68. Those cases relied on three significant gaps
between juveniles and adults. First, children have a ‘“lack
of maturity and an underdeveloped sense of responsibility,”
‘leading to recklessness, impulsivity, and heedless
risk-taking. Roper, 543 U.S. at 569. Second, children ‘are
more vulnerable . . . to negative influences and outside
pressures,’ including from their family and peers; they have
limited ‘contro[l] over their own environment’ and lack the
ability to extricate themselves from horrific,
crime-producing settings. Ibid. And third, a child’s
character is not as ‘well formed’ as an adult’s; his traits are
‘less fixed’ and his actions less likely to be ‘evidence of
irretrievabl[e] deprav[ity].’ Id. at 570.
Our decisions rested not only on common sense – on
what ‘any parent knows’ – but on science and social science
as well. Id. at 569. In Roper, we cited studies showing that
‘“[o]nly a relatively small proportion of adolescents”’ who
engage in illegal activity ‘“develop entrenched patterns of
problem behavior.”’ Id. at 570 (quoting Steinberg & Scott,
Less Guilty by Reason of Adolescence: Developmental
Immaturity, Diminished Responsibility, and the Juvenile
Death Penalty, 58 Am. Psychologist 1009, 1014 (2003)). And
in Graham, we noted that ‘developments in psychology and
brain science continue to show fundamental differences
between juvenile and adult minds’ – for example, in ‘parts
of the brain involved in behavior control.’ 560 U.S. at 68 .
. . . We reasoned that those findings – of transient
rashness, proclivity for risk, and inability to assess
consequences – both lessened a child’s ‘moral culpability’
and enhanced the prospect that, as the years go by and
neurological development occurs, his ‘“deficiencies will be
reformed.”’ Id. at 68 (quoting Roper, 543 U.S. at 570).
Miller, 567 U.S. at 471-472.
As the Graham Court noted, “[e]ven if the punishment has some
8

connection to a valid penological goal, it must be shown that the
punishment is not grossly disproportionate in light of the justification
offered.” Graham, 560 U.S. at 72. The Roper Court stated, “it is difficult
even for expert psychologists to differentiate between the juvenile
offender whose crime reflects unfortunate yet transient immaturity, and
the rare juvenile offender whose crime reflects irreparable corruption.”
Roper, 543 U.S. at 573 (citing Lawrence Steinberg & Elizabeth Scott, Less
Guilty by Reason of Adolescence: Developmental Immaturity, Diminished
Responsibility, and the Juvenile Death Penalty, 58 Am. Psychologist 1009,
1014-16 (2003)).
“It is widely recognized by many legal scholars that the United
States Supreme Court is moving rather quickly towards abolishing life
without parole sentences for juvenile offenders entirely.” Maureen
Dowling, Note Juvenile Sentencing in Illinois: Addressing the Supreme
Court Trend Away From Harsh Punishments for Juvenile Offenders, 35
N. Ill. U. L. Rev. 611, 619 (2015).
“There are several parts of the analyses of each case that
point to this inevitable shift. First, each case acknowledges
that the decisions are directly contrary to our historical
understanding of juvenile sentencing. The Court rejects the
notion of looking at sentencing ‘through a historical prism’
in favor of the evolving moral and ethical standards of
society. This opens up the Court to abolish life without
parole sentences for juveniles, even though traditionally it
is a widely practiced and accepted sentence. Second, each
opinion makes it clear that simply because a majority of
state sentencing statutes do not currently agree with the
decisions, this will not affect the outcome. This argument
goes hand-in-hand with the Court’s rejection of historical
sentencing standards. Again, the Court has left open the
possibility of abolishing the harshest sentence available to
juveniles. Finally, the Court repeatedly emphasizes the
differences between juveniles and adults as an explanation
for why each should be sentenced differently. The continued
focus on these differences further bolsters the argument for
abolishing life sentences without the possibility of parole for
juveniles.”
Id. at 619-20.
“The Supreme Court has followed a clear path away from life
without parole sentences. Following the reasoning laid out by the Court
in these three cases, it can easily be seen how the Court would deal with
9

abolishing the sentence entirely.” Id. at 627. As this note observes,
several states have responded to Miller by imposing “de facto” life
sentences through lengthy term-of-years sentences. Id. at 620. However,
“These de-facto life sentences are not consistent with the language or
analysis found in both Miller and Graham. A prison sentence that will
last sixty or more years does not allow courts to show juvenile offenders
any clemency. Furthermore, despite the lengthy discussion about the
differences between adults and juveniles, de-facto life sentences do not
give courts any opportunity to take the differences into account when
determining a sentence.” Id. at 621. We also observe that the Iowa
Supreme Court in State v. Null, 836 N.W.2d 41 (Iowa 2013) expanded the
principles of Miller to hold mandatory minimum sentences for juvenile
offenders to be unconstitutional. The Null court believed that
“while a minimum of 52.5 years imprisonment is not
technically a life-without-parole sentence, such a lengthy
sentence imposed on a juvenile is sufficient to trigger
Miller-type protections. Even if lesser sentences than life
without parole might be less problematic, we do not regard
the juvenile’s potential future release in his or her late
sixties after a half century of incarceration sufficient to
escape the rationales of Graham or Miller. The prospect of
geriatric release, if one is to be afforded the opportunity for
release at all, does not provide a ‘meaningful opportunity’ to
demonstrate the ‘maturity and rehabilitation’ required to
obtain release and reenter society as required by Graham,
560 U.S. at 75.”
Id. at 71.
Although the Court in Roper delineated the division between
juvenile and adult at 18, we do not believe that this demarcation has
created a bright line rule. See Roper, 543 U.S. at 574 (“Drawing the line
at 18 years of age is subject, of course, to the objections always raised
against categorical rules. The qualities that distinguish juveniles from
adults do not disappear when an individual turns 18. By the same token,
some under 18 have already attained a level of maturity some adults will
never reach. For the reasons we have discussed, however, a line must be
drawn. . . . The age of 18 is the point where society draws the line for
many purposes between childhood and adulthood. It is, we conclude, the
age at which the line for death eligibility ought to rest.”).
Rather, we find the designation that after age 18 an individual is
a mature adult appears to be somewhat arbitrary, especially in the case
at bar. Recent research and articles have discussed the differences
10

between young adults, like defendant, and a fully mature adult.
“Research in neurobiology and developmental psychology has shown that
the brain doesn’t finish developing until the mid-20s, far later than was
previously thought. Young adults are more similar to adolescents than
fully mature adults in important ways. They are more susceptible to peer
pressure, less future-oriented and more volatile in emotionally charged
settings.” Vincent Schiraldi & Bruce Western, Why 21 year-old offenders
should be tried in family court, Wash. Post (Oct. 2, 2015), available at
www.washingtonpost.com/opinions/time-to-raise-the-juvenile-agelimit/2015/10/02/948e317c-6862-11e5–-9ef3-fde182507eacstory.html .
“The young adult brain is still developing, and young adults
are in transition from adolescence to adulthood. Further,
the ongoing development of their brains means they have a
high capacity for reform and rehabilitation. Young adults
are, neurologically and developmentally, closer to
adolescents than they are to adults. Prosecuting and
sentencing young adults in the adult criminal justice system
deprives them of their chance to become productive
members of society, leads to high recidivism rates, and high
jail and prison populations, and increased costs to society
through subsequent incarceration and unemployment.”
Kanako Ishida, Young Adults in Conflict with the Law: Opportunities for
Diversion, Juvenile Justice Initiative, at 1 (Feb. 2015), available at
jjustice.org/wordpress/wp-content/uploads/Young-Adults-in-Conflict-wi
th-the-Law-Opportunities-for-Diversion.pdf.
The thesis of these articles is to illustrate the need to expand
juvenile sentencing provisions for young adult offenders. Both articles
noted that several European countries have already extended juvenile
justice to include young adults. In Germany, all young adults ages 18 to
21 have been tried in juvenile court and the judges have an option to
sentence them as a juvenile, if a consideration of the offender’s
personality and environment indicate that his psychological development
was as a juvenile. Id. at 2. Sweden allows for young adults to be tried in
juvenile court until their 25th birthday, and young adults 18 to 24 receive
different treatment than adults. “For instance, statutory minimum
sentences cannot be applied for young people age 20 or under.” Id. at 3.
The Netherlands has extended juvenile alternatives for young adults ages
18 to 21. Id.
We also point out that Illinois raised the age for a delinquent
minor. Prior to January 1, 2014, a person who committed a felony prior
to his or her 17th birthday was considered a delinquent minor. See 705
11

ILCS 405/5–105(3) (West 2012). However, Public Act 98-61 changed the
definition of a delinquent minor to be, “any minor who prior to his or her
18th birthday has violated or attempted to violate, regardless of where
the act occurred, any federal, State, county or municipal law or
ordinance.” Pub. Act. 98–61, § 5 (eff. Jan. 1, 2014) (amending 705 ILCS
405/5-105(3) (West 2012)).
As discussed in the Northern Illinois University Law Review note,
the Supreme Court of Wyoming compiled a list of factors taken from
Miller to consider in sentencing juveniles.
“During a postconviction sentencing hearing, a trial court
should scrutinize the following factors before sentencing a
juvenile offender: (a) the character and history of the
juvenile offender and the specific circumstances of the
crime; (b) the background and emotional and mental
development of the juvenile offender; (c) the offender’s age
and characteristics that go along with it including
immaturity and ability to appreciate risks; (d) the juvenile’s
family and home environment; (e) the circumstances of the
crime, the extent to which the juvenile was involved, and
the extent to which peer or familial pressure may have
factored into the juvenile’s participation; (f) ‘the juvenile’s
relative inability to deal with police and prosecutors or to
assist his own attorney’; and (g) the offender’s potential for
rehabilitation.”
Dowling, supra at 634 (citing Bear Cloud v. State, 2013 WY 18, ¶ 42, 294
P.3d 36, 47 (Wyo. 2013), quoting Miller, 567 U.S. at 475-477).
“‘[J]ust as the chronological age of a minor is itself a relevant
mitigating factor of great weight, so must the background and mental and
emotional development of a youthful defendant be duly considered’ in
assessing his culpability.” Miller, 567 U.S. at 476 (quoting Eddings v.
Oklahoma, 455 U.S. 104, 116 (1982)). As the Supreme Court observed in
Graham, “Life without parole is an especially harsh punishment for a
juvenile. Under this sentence a juvenile offender will on average serve
more years and a greater percentage of his life in prison than an adult
offender. A 16-year-old and a 75-year-old each sentenced to life without
parole receive the same punishment in name only.” Graham, 560 U.S. at
70.
“By making youth (and all that accompanies it) irrelevant to
imposition of that harshest prison sentence, such a scheme poses too
great a risk of disproportionate punishment.” Miller, 567 U.S. at 479.
Under Illinois law, the harshest form of punishment is a mandatory life
12

sentence. See 730 ILCS 5/5-8-1(a) (West 2014). The trial court is not
afforded any discretion if an offender is found guilty of triggering
offenses, such as, the death of more than one person. See 730 ILCS 5/5-81(a)(1)(c)(ii) (West 2014). However, when the death penalty still existed
in Illinois, there were several statutory guidelines that had to be met
before such a sentence could be imposed. See 720 ILCS 5/9-1 (West 2010).
The lack of discretion afforded the trial court for the imposition of a
mandatory life sentence is especially relevant when the defendant is a
young adult, over 18, but still not considered a fully mature adult.
These considerations are significant in the instant case and
support defendant’s argument that the mandatory natural life sentencing
statute is unconstitutional as applied to him. Turning to the case at bar,
while clearly no longer a juvenile, defendant, at age 19 years and 2
months, was barely a legal adult and still a teenager. His youthfulness
is relevant when considered alongside his participation in the actual
shootings. Defendant’s presentence investigation report showed that his
only prior offenses were possession of a controlled substance with intent
to deliver. Defendant did not have a criminal history of violent crimes.
The sentencing hearing also disclosed that defendant never knew his
father, he was raised by his maternal grandmother, and that his mother
died when he was 18. Defendant attended high school through the
twelfth grade, however, he never graduated. At the time defendant was
sentenced, the death penalty was still in place in Illinois. Although the
trial judge found defendant eligible for the death penalty, he concluded
that there were “sufficient mitigating factors to preclude the imposition
of the death penalty.” While some of these mitigating factors were before
the trial court when it declined to impose the death penalty, they were
not available to be considered before imposing a mandatory natural life
sentence. The court’s ability to take any factors into consideration was
negated by the mandatory nature of defendant’s sentence. The trial court
was also precluded from considering the goal of rehabilitation in imposing
the life sentence, which is especially relevant in defendant’s case. Given
defendant’s age, his family background, his actions as a lookout as
opposed to being the actual shooter, and lack of any prior violent
convictions, we find that defendant’s mandatory sentence of natural life
shocks the moral sense of the community.
Our conclusion is not meant to diminish in any way of the
seriousness of the crimes, specifically two convictions for murder and two
convictions for aggravated kidnapping. We recognize defendant remains
culpable for his participation. However, we believe that defendant is
entitled to a new sentencing hearing in which the trial court has the
ability to consider the relevant mitigating factors prior to imposing a
13

sentence of such magnitude. Accordingly, we hold that defendant’s
sentence violates the proportionate penalties clause of the constitution as
applied to him. We vacate defendant’s sentence of natural life and
remand for a new sentencing hearing.
House, 2015 WL 9428803 at *22-28.
The Petitioner requests the Court to adopt the Illinois court’s well-reasoned
opinion in House and thereafter conclude that the life without parole sentence in this
case is unconstitutional. As explained in House, excluding the Petitioner from the
reasoning of the Court’s opinion in Graham simply because the offense in this case
occurred shortly after she turned eighteen years old is arbitrary. And as explained
above, recent research and studies into the human brain has now clearly established
that young adults are more similar to adolescents than fully mature adults.
Like House, there are mitigating circumstances in this case. Most notably, the
Petitioner was convicted as a principal. Undersigned counsel recognizes that – from
a conviction standpoint – Florida law treats a principal as if s/he has committed all of
the acts of the other codefendants. However, from a sentencing standpoint, the
Petitioner – who was not the trigger person – is less culpable than someone who
actually fires a gun and kills another person. Additionally, during the sentencing
hearing, the Petitioner presented several mitigating circumstances – including mental
health disorders (i.e., bipolar disorder and borderline personality disorder) and
assistance provided to law enforcement. (A-16-109; A-12-13).
Recently, courts in other states have expanded the rationale behind the Graham
decision and applied it to teenagers above the age of seventeen (i.e., defendants who
14

were eighteen or nineteen). For example, in the case of Travis Bredhold – an eighteenyear-old defendant charged with murder – a Kentucky judge ruled that the death
penalty is unconstitutional for defendants under the age of twenty-one.

See

http://www.kentucky.com/news/local/crime/article165492482.html. In reaching this
conclusion, the judge
cited research showing that 18- to 21-year-olds are less culpable for the
same reasons that the U.S. Supreme Court found teens under 18 to be.
The age group lacks maturity to control their impulses and fully consider
risks, making them unlikely to be deterred by knowledge of likelihood
and severity of punishment, the judge wrote.
Id. Similarly, in Matter of Light-Roth, 2017 WL 3473644 (Wash. Ct. App. Aug. 14,
2017), a Washington appellate court held that a nineteen-year-old defendant convicted
of second-degree murder in 2004 was entitled to resentencing so that he could present
evidence of his “youthfulness” as a mitigating factor. Most recently, the Washington
Supreme Court relied upon the reasoning in Graham and held that it is
unconstitutional to impose mandatory life-without-parole sentences on defendants
between the ages of eighteen and twenty-one. See Matter of Monschke, 2021 WL
923319 (Wash. Mar. 11, 2021). Based on these decisions from Illinois, Kentucky, and
Washington, there appears to be an emerging trend in this country to extend the
Graham rationale to teenagers older than seventeen.
In 2014, the Florida Legislature responded to the Court’s decision in Graham
and the Florida Legislature adopted criteria for a sentencing court to consider when
sentencing a defendant with a less-than fully formed brain. See § 921.1401, Fla. Stat.

15

Section 921.1401 states in relevant part
(2)
In determining whether life imprisonment or a term of years
equal to life imprisonment is an appropriate sentence, the court shall
consider factors relevant to the offense and the defendant’s youth and
attendant circumstances, including, but not limited to:
(a)
The nature and circumstances of the offense committed by
the defendant.
(b)
The effect of the crime on the victim’s family and on the
community.
(c)
The defendant’s age, maturity, intellectual capacity, and
mental and emotional health at the time of the offense.
(d)
The defendant’s background, including his or her family,
home, and community environment.
(e)
The effect, if any, of immaturity, impetuosity, or failure to
appreciate risks and consequences on the defendant’s participation in the
offense.
(f)
The extent of the defendant’s participation in the offense.
(g)
The effect, if any, of familial pressure or peer pressure on the
defendant’s actions.
(h)
The nature and extent of the defendant’s prior criminal
history.
(i)
The effect, if any, of characteristics attributable to the
defendant’s youth on the defendant’s judgment.
(j)
The possibility of rehabilitating the defendant.
However, none of the factors set forth in section 921.1401 were considered by the
sentencing court in the Petitioner’s case because the Petitioner was over the age of
eighteen at the time of the criminal incident. Undersigned counsel submits that the
appropriate remedy in this case is to remand this case with directions that the state
trial court conduct a resentencing hearing so that the state trial court can properly
apply the factors set forth in section 921.1401 in order to determine an appropriate
sentence in this case – a sentence that takes into consideration the Petitioner’s age,
maturity, intellectual capacity, and mental and emotional health at the time of the

16

offenses.
By granting the petition for writ of certiorari in the instant case, the Court will
have the opportunity to consider the question of whether a sentence of life
imprisonment without the possibility of parole on a nineteen-year-old defendant
convicted as a principal to second-degree murder – and who, as specifically
acknowledged by the trial court, had no intent to commit murder and who was held
criminally responsible solely because she agreed to loan her car to others who planned
to commit a robbery – violates the prohibition of cruel and unusual punishment of the
Eighth Amendment to the Constitution. The question in this case has the potential to
impact hundreds – if not thousands – of cases nationwide. The Petitioner urges the
Court to exercise its discretion to hear this important question.

17

I. CONCLUSION
The Petitioner requests the Court to grant his petition for writ of certiorari.
Respectfully Submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

18

